<html>
<title> - THE ECONOMIC REPORT OF THE PRESIDENT</title>
<body><pre>[Senate Hearing 114-279]
[From the U.S. Government Publishing Office]




                                                      S. Hrg. 114-279

                  THE ECONOMIC REPORT OF THE PRESIDENT

=======================================================================

                                HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 2, 2016

                               __________

          Printed for the use of the Joint Economic Committee



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-452                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

SENATE                               HOUSE OF REPRESENTATIVES
Daniel Coats, Indiana, Chairman      Patrick J. Tiberi, Ohio, Vice 
Mike Lee, Utah                           Chairman
Tom Cotton, Arkansas                 Justin Amash, Michigan
Ben Sasse, Nebraska                  Erik Paulsen, Minnesota
Ted Cruz, Texas                      Richard L. Hanna, New York
Bill Cassidy, M.D., Louisiana        David Schweikert, Arizona
Amy Klobuchar, Minnesota             Glenn Grothman, Wisconsin
Robert P. Casey, Jr., Pennsylvania   Carolyn B. Maloney, New York, 
Martin Heinrich, New Mexico              Ranking
Gary C. Peters, Michigan             John Delaney, Maryland
                                     Alma S. Adams, Ph.D., North 
                                         Carolina
                                     Donald S. Beyer, Jr., Virginia

                  Viraj M. Mirani, Executive Director
                 Harry Gural, Democratic Staff Director


















                            C O N T E N T S

                              ----------                              

                     Opening Statements of Members

Hon. Daniel Coats, Chairman, a U.S. Senator from Indiana.........     1
Hon. Carolyn B. Maloney, Ranking Member, a U.S. Representative 
  from New York..................................................     2

                                Witness

Hon. Jason Furman, Chairman, Council of Economic Advisers........     4

                       Submissions for the Record

Prepared statement of Hon. Daniel Coats, Chairman, a U.S. Senator 
  from Indiana...................................................    34
Prepared statement of Hon. Carolyn B. Maloney, Ranking Member, a 
  U.S. Representative from New York..............................    34
    Chart titled ``Longest Streak of Private-Sector Job Growth 
      Continues''................................................    42
    Chart titled ``U.S. Economy Has Grown in 24 of the Last 26 
      Quarters''.................................................    43
Prepared statement of Hon. Jason Furman, Chairman, Council of 
  Economic Advisers..............................................    36
Chart titled ``History of OMB Budget Projections of Real GDP 
  Growth Rate vs. Actual, Other Forecasts'' submitted by Vice 
  Chairman Tiberi................................................    44
Chart titled ``Historical U.S. GHG Emissions, Non-Binding 
  Reduction Pledges, and Long-Term `Pathway' '' submitted by Vice 
  Chairman Tiberi................................................    45
Questions for the record and responses:..........................
    Questions for Hon. Jason Furman submitted by Senator Martin 
      Heinrich...................................................    46
    Questions for Hon. Jason Furman submitted by Senator Amy 
      Klobuchar..................................................    51
 
                  THE ECONOMIC REPORT OF THE PRESIDENT

                              ----------                              


                        WEDNESDAY, MARCH 2, 2016

             Congress of the United States,
                          Joint Economic Committee,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 2:28 p.m., in Room 
216 of the Hart Senate Office Building, the Honorable Daniel 
Coats, Chairman, presiding.
    Representatives present: Tiberi, Paulsen, Hanna, Grothman, 
Maloney, Delaney, Beyer, and Schweikert.
    Senators present: Coats, Lee, Klobuchar, Casey, and Peters.
    Staff present: Breann Almos, Ted Boll, Doug Branch, Whitney 
Daffner, Barry Dexter, Connie Foster, Harry Gural, Colleen 
Healy, Matt Kaido, Jason Kanter, Christina King, Yana Mayayeva, 
Viraj Mirani, Brian Neale, Thomas Nicholas, Brian Phillips, Ken 
Scudder, and Phoebe Wong.

   OPENING STATEMENT OF HON. DANIEL COATS, CHAIRMAN, A U.S. 
                      SENATOR FROM INDIANA

    Chairman Coats. As soon as I turn on the microphone, the 
Committee will come to order.
    Chairman Furman, welcome back. We very much appreciate your 
willingness to come and speak with us, following The Economic 
Report of the President. It is important for us to understand 
what is in this and get your take on it, and where we are 
going. It certainly helps us in terms of our policymaking 
decisions going forward. I want to welcome you here and thank 
you for your participation.
    Vice Chairman Tiberi, Ranking Member Maloney, and all of us 
welcome you and thank you for your willingness to continue this 
long-standing tradition that we have that the Chairman of the 
Council of Economic Advisers testifies before the Joint 
Economic Committee.
    This year marks the 70th anniversary of the Council of 
Economic Advisers and the Joint Economic Committee, both of 
which were created to advise our respective Branches of 
Government on a wide range of matters affecting the economy.
    We appreciate this annual opportunity to engage in 
dialogue, and look forward to discussing this year's economic 
report.
    Much has been learned over the course of this slow-growth 
recovery that we are in, and these lessons will only continue 
for the foreseeable future. The current recovery has been 
slower than previous recoveries, and subdued expectations about 
the economic, population, and labor force growth have placed 
additional pressures on federal budget constraints.
    However, I do not accept the often-mentioned assertion that 
we have entered a new normal of slower economic growth. Policy 
reforms seeking to create a better tax system, rein in 
spending, and loosen the regulatory shackles restricting our 
economy can alter this trajectory by removing some of the 
structural barriers American workers and businesses face today.
    In my opinion, a lot of the problems we would like to solve 
require us as policymakers to look in the mirror and see how 
current Federal Government policies are affecting our economy.
    In his final State of the Union Address this year, 
President Obama stated that he wanted, and I quote here, ``to 
focus on the next five years, the next ten years, and beyond.''
    However, he admitted one of the most important issues that 
America faces in the coming years, the financial obligations 
that will come due over those time frames, and particularly in 
the beyond.
    That was not mentioned once in his address, and how to 
achieve fiscal sustainability was not among the four questions 
the President argued that we as a country have to answer.
    I found this to be a glaring omission, given how our 
national debt has risen so sharply over the past seven years 
from $10.6 trillion when President Obama took office to now 
over $19 trillion dollars.
    This accumulation of such staggering levels of debt is 
nothing short of reckless, and the situation will only get 
worse the longer we wait to address it.
    According to a recently released report by the nonpartisan 
Congressional Budget Office, in just 10 years spending on 
mandatory spending programs and interest on the debt will 
consume nearly 99 percent of all federal revenues. Clearly this 
path is unsustainable.
    So if we do not work now to correct this disturbing 
trajectory, our ability to pay for essential government 
functions will be severely constrained. Our economy will 
suffer. And our national security will be at risk.
    The CEA's report we will discuss today devotes significant 
attention to inequality as a defining challenge of the 21st 
Century. However, I think it is important to recognize that 
intergenerational theft is also a form of inequality, a 
particularly severe one that our children and grandchildren are 
poised to inherit.
    Their ability to succeed in our future economy will depend 
largely on the decisions that we make today. For the American 
Dream to remain attainable for future generations, we must 
accept the reality of our fiscal situation and act responsibly 
by addressing it immediately.
    I look forward to discussing these issues in more depth 
with Chairman Furman, and I will now turn to our Ranking Member 
Maloney for her opening statement.
    [The prepared statement of Chairman Coats appears in the 
Submissions for the Record on page 34.]

OPENING STATEMENT OF HON. CAROLYN B. MALONEY, RANKING MEMBER, A 
               U.S. REPRESENTATIVE FROM NEW YORK

    Representative Maloney. First of all, welcome, Dr. Furman, 
and thank you for planning this hearing, Mr. Chairman. And 
thank you, Dr. Furman, for appearing yet again before us today 
to answer questions about the current state of the U.S. 
economy.
    I share the overall assessment of the Economic Report of 
the President that under the leadership of President Obama the 
Nation's economy is back on track after what was the worst 
recession since the Great Depression.
    We have just completed the best two years of private-sector 
job growth since the 1990s. We have recorded the fastest two-
year drop in the annual average unemployment rate in 30 years.
    The unemployment rate has been cut in half. As you can see 
in this chart, we are in the midst of the longest streak of 
private-sector job creation in history, with a record 71 
straight months of growth and the creation of 14 million 
private-sector jobs.
    [The chart titled ``Longest Streak of Private-Sector Job 
Growth Continues'' appears in the Submissions for the Record on 
page 42.]
    There are some who look lightly at these achievements, 
claiming that the Obama recovery pales in comparison to 
average, quote ``average'' recoveries, as if the economic 
meltdown during the last years of the Bush Administration was, 
quote, ``an average recession.''
    Is the loss of almost 9 million American jobs ``average''? 
Is the loss of homes for 9 million Americans ``average''? Let's 
remember, when George Bush left the Oval Office, the economy 
was in a death spiral.
    In the final quarter of 2008, GDP shrank at a staggering 
8.2 percent annual rate--the worst quarterly economic 
performance in more than 50 years.
    Housing prices were collapsing. U.S. households lost nearly 
$13 trillion.
    Dr. Furman, last year you told us that this recession was 
like an economic heart attack. You said the share of wealth 
lost in the early days of this recession was almost 5 times as 
large as the loss in wealth that triggered the Great 
Depression.
    Thanks to the bold action of President Obama, Democrats in 
Congress and the Federal Reserve, we have steadily climbed back 
from this recession. As you can see from this chart, the U.S. 
GDP has grown in 24 of the past 26 quarters. Real GDP has grown 
by over 14 percent since the start of the Obama Administration.
    [The chart titled ``U.S. Economy Has Grown in 24 of the 
Last 26 Quarters'' appears in the Submissions for the Record on 
page 43.]
    The auto industry, written off by some as dead, has already 
added nearly 640,000 new jobs since 2009, and it is now 
exporting more than 2 million units per year.
    Average housing prices have rebounded to 2007 levels, and 
household wealth is more than $17 trillion higher than before 
the recession.
    This recovery has occurred despite efforts by many 
Republicans in Congress. First, they opposed stimulating the 
economy. In fact, every single one of them in the House voted 
against the Recovery Act.
    They demanded budget cuts at exactly the time when economic 
theory says government should increase spending to boost 
demand.
    The Report notes that the economy faces long-term 
structural challenges.
    First of all, the Baby Boomers are retiring. That alone 
will decrease labor force participation and slow the growth of 
GDP.
    We also face the devastating effects of off-shoring of 
American jobs and job losses due to automation and technical 
changes. These challenges are not a surprise. They have been on 
economists' radar for years.
    So what should we do? I agree with your assessment that we 
need to rebuild the Nation's crumbling infrastructure, invest 
in early childhood education, implement paid leave, achieve 
equal pay for equal work, and make college more affordable.
    I want to close by looking at economic inequality, one of 
the central issues of our time, and the focus of the first and 
fourth chapters of the Economic Report of the President.
    The U.S. experience has diverged from other advanced 
countries. Since 1987, the share of income going to the top 1 
percent in the United States has been greater than in every 
other G-7 country every single year.
    We need to recommit ourselves to policies that expand 
opportunities and narrow inequality. These policies will pay 
dividends in the future, and help us create an economy that is 
even more robust, an economy where the benefits of growth are 
shared across the income spectrum.
    As you note, giving all people a fair shot will strengthen 
our economy by boosting productivity and accelerating growth.
    Dr. Furman, thank you once again for appearing before the 
Committee. I am eager to hear your testimony. And 
congratulations on an excellent report.
    [The prepared statement of Representative Maloney appears 
in the Submissions for the Record on page 34.]
    Chairman Coats. Thank you, Ranking Member Maloney. Now we 
turn to introducing our distinguished witness, Chairman Furman.
    Jason Furman is the Chairman of the Council of Economic 
Advisers. Previously he served as a Principal Deputy Director 
at the National Economic Council, and Senior Vice President of 
the World Bank.
    He has also been a senior fellow in economic studies and 
Director of the Hamilton Project at the Brookings Institution.
    Dr. Furman earned his Ph.D. in Economics and a Masters of 
Arts in Government from Harvard University, and a Masters of 
Science in Economics from the London School of Economics.
    Thank you, Chairman Furman, for joining us. We look forward 
to hearing from your report.

 STATEMENT OF HON. JASON FURMAN, CHAIRMAN, COUNCIL OF ECONOMIC 
                    ADVISERS, WASHINGTON, DC

    Chairman Furman. Thank you, Chairman Coats, Vice Chairman 
Tiberi, Ranking Member Maloney, and members of the Committee. 
We are excited to be here today to talk about the 70th Annual 
Economic Report of the President, something that the CEA and 
this Committee have had a chance to do many, many times over 
the decades.
    This report's overall macroeconomic theme is that 2015 was 
a year of continued growth for the U.S. economy in the face of 
substantial headwinds from abroad.
    Ranking Member Maloney cited a number of the statistics: 
the strongest job growth in two years--in two years of job 
growth in a decade; the largest decline in the unemployment 
rate in 30 years; and the longest streak of private-sector job 
growth on record.
    The unemployment rate has consistently fallen well faster 
than what anyone would expect, falling to 4.9 percent, its 
lowest since February 2008, as compared to forecasts which as 
recently as 2014 had expected it to stay above 5 percent 
through 2020.
    At the same time, the labor force participation rate has 
been relatively stable over the past year, as improving 
economic conditions partially offset the drag on participation 
from the retirement of the Baby Boom Generation.
    And perhaps most importantly, over the past six months 
nominal hourly earnings for private-sector workers have grown 
at their fastest pace since the Great Recession, although more 
work remains to be done to boost wages.
    Our domestic progress is all the more notable in light of 
the substantial headwinds that the United States faces from the 
global economy.
    The International Monetary Fund estimates that global 
economic growth was 3.1 percent in 2015, the slowest since 
2009, and continuing a trend of falling below expectations.
    The United States had the highest growth rate of any major 
advanced economy, but slowing growth in a number of large 
emerging markets weighed heavily on the global economy in 2015.
    Weak growth abroad served as a drag on U.S. exports, with 
exports subtracting 0.1 percentage points from real GDP growth 
in 2015, a substantial shift from the half-point that experts 
had been adding to growth in 2013 and 2014. And we expect these 
headwinds to continue into the year 2016.
    Particularly in light of these adverse global developments, 
it is important that we work to strengthen domestic growth by 
boosting productivity and dynamism in the U.S. economy.
    It is also important that we work to ensure that the 
benefits of economic growth are shared broadly. And to this 
end, the 2016 Economic Report of The President lays out the 
President's agenda for inclusive growth.
    Despite progress since the Great Recession, the unequal 
distribution of income, wealth, and opportunity remains one of 
the greatest challenges facing our economy. It is not unique to 
the United States, but it is more severe here than in other 
countries around the world.
    Some of the increase we have seen is a natural consequence 
of competitive markets, a result of differences in productivity 
as technology evolves, but some of the increase may reflect the 
rising influence of what economists call economic rents: the 
income captured by companies and workers beyond what their 
productivity justifies.
    The apparent increase in rents in recent decades and their 
overall increasingly unequal distribution have contributed to 
overall inequality without boosting productivity, providing 
opportunities to improve both efficiency and equity in the U.S. 
economy.
    The President's agenda includes making competitive markets 
work better by increasing opportunity and combating the trend 
of rising unequally divided rents.
    Competition most effectively promotes economic growth when 
it is open to the widest pool of talent. So the President is 
promoting equality of opportunity by investing in education, 
supporting children in low-income families, and ensuring a fair 
criminal justice system.
    And the President also supports policies to make markets 
more competitive by reducing overall economic rents through 
promoting more open and competitive markets, balanced 
intellectual property rules, and a smarter approach to 
occupational licensing and regulation, among other policies.
    Now other sections of this year's report lay out additional 
steps we can and should take to ensure a strong domestic 
economy, including expanding trade, investing in technology, 
investing in infrastructure, and investing in children.
    And I would be more than happy to talk about these or any 
other topics that you're interested in.
    Thank you.
    [The prepared statement of Chairman Furman appears in the 
Submissions for the Record on page 36.]
    Chairman Coats. Mr. Chairman, thank you very much. I want 
to apologize for having to leave shortly. The Senate has called 
for four consecutive votes, which will take a considerable 
amount of time.
    I am going to ask my question to you, and then turn this 
over to Congressman Tiberi, our Vice Chairman, who will 
recognize Mrs. Maloney as Ranking Member. And then, in this 
somewhat byzantine order of who came first, and which chamber 
you are from, and what is your seniority, we will try to do a 
fair allocation of back and forth. And I have someone here who 
has studied fastidiously and is an expert on telling you, Vice 
Chairman, who is next. And, trust me, with people in and out 
and back and forth, it can get very complicated.
    Mr. Chairman, I came to office a long time ago. One of the 
very first critical votes I had to face was the decision as to 
whether or not we would raise our debt ceiling limit to over $1 
trillion.
    People say, wow, that must have been a hundred years ago. 
No, not quite. That was 1981. Today, we are at the $19 trillion 
mark.
    Look, let's take the politics out of this. We had three 
years of balanced budgets at the end of the 1900s before we 
came into this New Millennium. Under both Republican control 
and Democrat control, we have seen an ever-accelerating plunge 
into debt.
    We know that the Darth Vader of the future economy is 
lurking out there waiting to collect the bills. We know that 
from CBO the projections going forward are dramatic relative to 
the way discretionary spending shrinks as mandatory spending 
continues to grow.
    In fact, CBO said that in 10 years we will at the current 
trend be at 99 percent--that 99 percent of our budget will be 
consumed by mandatory spending and interest coverage.
    This obviously is unacceptable. We know the Baby Boom 
budget--Baby Boom era has been descending upon us. We have 
known this for decades. And so if we can take the politics out 
of this as to who to blame, and who is responsible, and simply 
say we now, whether you are a Republican or a Democrat, a 
conservative, liberal, or in between on that spectrum, we have 
a common challenge that has to be addressed.
    It has been pushed down the road over, and over, and over. 
It is becoming increasingly a hindrance to our economy and 
ability to grow, to provide for our national security, to pave 
roads, to build infrastructure, to provide for health care, 
research, and you name the functions that are necessary to be 
addressed.
    So I wonder if you would tell us, what is the next 
President, regardless of who that is, what is the next 
President and the next Congress, what do they need to do to 
finally stand up to this looming crisis to put in place a long-
term solution that is feasible in terms of how we need to 
govern, but will put us on a path to more fiscal responsibility 
and avoid this coming wall that we are going to hit if we do 
not take action?
    I may not be able to be here to hear your final answer on 
that, but we would like it for the record. And I would 
appreciate it if you would address that. That is my only 
question, and then I will turn it over to Mr. Tiberi.
    Chairman Furman. So thank you very much for that question. 
And I think I agree with the premise of almost everything that 
you said. I think it is important to put this in context. Our 
deficit was nearly 10 percent of GDP when the President walked 
in the door. That was a consequence of a very severe Recession.
    The deficit has come down to 2.5 percent of GDP, which is 
below the average of the last 40 years----
    Chairman Coats. But we know it is going to spike shortly, 
right?
    Chairman Furman. Absolutely. And that is due to a 
combination of deficit reduction and also a strengthening 
economy. Doug Elmendorf, the former CBO Director, recently co-
wrote a paper in which he argued that the fiscal outlook over 
the next 25 years is a challenge, as you said, but is less of a 
challenge than it looked a couple of years ago--in part because 
of the steps we have taken, and in part because of lower 
interest rates.
    But more does need to be done. The deficit will rise as a 
share of GDP. The debt will rise as a share of GDP, and our 
approach is a balanced combination of measures on the spending 
side, including to entitlements, and measures on the tax side 
which predominantly are not about raising rates but are about 
cutting back on tax benefits for high-income households, many 
of which are not economically efficient.
    The last thing I should say is that ultimately our goal is 
to see the debt-to-GDP ratio on a downward path and stabilized. 
One can accomplish that both by lowering debt, but also by 
raising GDP.
    So steps that strengthen our economy are a really important 
part of how we need to deal with our debt and deficit as well.
    Chairman Coats. Thank you. We finished 12 seconds ahead--
whoops, 12 seconds behind my time. So I need to pass this on to 
Mr. Tiberi, and again apologize for having to leave, and 
hopefully to be back as quickly as I can.
    Chairman Furman. Thank you.
    Vice Chairman Tiberi [presiding]. Thank you, Mr. Chairman. 
I will recognize the Ranking Member, Mrs. Maloney, for five 
minutes.
    Representative Maloney. Thank you, very much.
    A major focus of The Economic Report of the President is 
widening economic inequality. And your report argues that 
extreme inequality can be a macroeconomic problem, a drag on 
productivity and growth.
    Please explain to even those who are not concerned about 
the growing gap between the haves and the have-nots, why we 
should be concerned about inequality, and why is vast 
inequality everybody's problem?
    Chairman Furman. Thanks for your question. And I think 
there are a number of reasons. One of the clearest is that if 
you have inequality of income, you are going to have inequality 
of opportunity. And if you have inequality of opportunity, 
there is talent that could be contributing to more of our 
economy but will not get the shot that it should get because of 
lacking educational and other opportunities.
    So we will miss out on the innovation and creativity we 
need to push us forward.
    Representative Maloney. Okay. As you noted in your 
testimony, the share of income going to the top 1 percent in 
the United States is much higher than in other G-7 countries.
    Why has the experience in the United States been so 
different from the other G-7 countries?
    Chairman Furman. All of our economies are facing similar 
forces in terms of technology and globalization, and those have 
played a role in rising equality across the advanced economies.
    One thing that has happened in the United States, though, 
is we have made less of an investment in education that would 
let our workers keep up with the skills that would complement 
the advances we have seen in technology, or to take advantage 
of globalization.
    So that is one reason why we have seen an increase in 
inequality.
    I think also institutional changes matter, the fact that 
the United States has a minimum wage that is very low by the 
standards of the G-7 has been eroded substantially by 
inflation, has also been a contributing factor to the increase 
in inequality.
    Representative Maloney. Many people understand that 
expanding economic opportunity for women in the workplace and 
paying them fairly is the right thing to do. Why is it also 
good for the broader economy?
    Chairman Furman. One of the challenges we face in our 
economy is a demographic challenge, that we are an increasingly 
aging society and that has slowed the growth of our labor 
force.
    One of the ways to increase the growth of our labor force 
would be to incorporate both more men and women in the 
workforce. And when you take steps like more flexible 
workplaces, more subsidies for child care, reducing the tax 
penalty on secondary earners, and other measures along those 
lines, paid leave, all of that helps bring more women into the 
workforce and helps us overcome some of the demographic 
challenges we have built into our age structure.
    Representative Maloney. And people understand that programs 
like Head Start, and universal pre-K are an effective tool for 
helping children succeed in life. What are the economic 
benefits for allowing all of our children to have this 
opportunity of pre-K?
    Chairman Furman. Recently economic research has been taking 
advantage of studies that follow children over a very long 
period of time after public policies. And they have found that 
high-quality preschool, for example, raises future earnings 
substantially, and raises them more than enough to justify the 
initial cost of the program.
    High-quality preschool also, by the way, helps women's 
labor force participation. So it helps today the family as a 
whole, and balancing work and family, and then it helps the 
children later on. That is true of a wide range of 
interventions--the Earned Income Tax Credit, Supplemental 
Nutritional Assistance Program, and Medicaid, all have been 
shown to have long-term benefits for children in terms of 
education, earnings, and health.
    Representative Maloney. When the United States Congress 
instituted automatic spending cuts in 2013, did it help or hurt 
the economy?
    Chairman Furman. That hurt the economy. It created a fiscal 
headwind.
    Representative Maloney. Well my time has expired. Thank 
you.
    Vice Chairman Tiberi. Thank you, Ranking Member.
    Good afternoon, Chairman Furman. Thanks for joining us 
today. In his letter to Congress introducing the ERP, President 
Obama says, and I quote, ``I have never been more optimistic 
about America's future than I am today.''
    However, the chart that I have, hopefully on the screen 
here in a second, shows that past growth projections from the 
Administration have not lived up to expectations. They have 
failed.
    [The chart titled ``History of OMB Budget Projections of 
Real GDP Growth Rate vs. Actual, Other Forecasts'' appears in 
the Submissions for the Record on page 44.]
    And that now, by the Administration's own estimates, the 
long-term growth potential is meager, at best. So the red is 
OMB's forecast. The solid black line is actual. And the dotted 
black line is the new projection going forward. And then the 
blue, the various blue lines, are other nonpartisan 
organizations. And you can see the growth. GDP growth is 
between 2 and 2\1/2\ percent, which is below the historic 
averages.
    As you know, business investment is essential to economic 
growth, job creation, and rising living standards. It has 
slowed dramatically in the last two years.
    So you describe an optimistic and a pessimistic view of the 
future trend in business investment within your report. So are 
you optimistic, or pessimistic?
    Chairman Furman. Thank you so much for that question. Of 
course I am optimistic, and that optimism depends both on the 
inherent strengths of the U.S. economy and also the policy 
measures that we can take.
    Now if you look at the unemployment rate--and I had shown 
that chart in my initial presentation--that has consistently 
fallen faster than our forecasts. Interest rates have come in 
below our forecasts. And the goal of these forecasts is to 
forecast the budget deficit, which has also generally come in 
at less than what we had expected.
    So a number of things have come in better than 
expectations. I think you are right, though, on the business 
investment across all the advanced economies: the UK, the Euro 
Zone, Japan, has not been what we would like to see. And I 
think a lot of that is the consequence of the very deep 
Recession.
    The bright spot within business investment is research and 
development by private companies is the highest it has been as 
a share of GDP.
    Vice Chairman Tiberi. So you yourself mentioned the 
importance of GDP growth to the Chairman, Mr. Coats' question 
regarding our debt and our long-term debt. So Larry Summers, 
who you know, recently talked about secular stagnation. His 
hypothesis sees low capital investment, slow labor growth, and 
slow technological progress as lasting conditions long term.
    Is secular stagnation the same as the pessimistic view in 
the ERP? Or how do you explain it? And do you agree with it?
    Chairman Furman. I guess I interpret secular stagnation as 
a specific economic hypothesis about long-term equilibrium 
interest rates and the like. I think it has a number of 
problems in its application to the United States. I think it 
may help us understand places like Japan and the Euro Zone. I 
do not think it applies to the United States.
    That being said, I think the impetus that we need to take 
bold steps, like invest more in our infrastructure, are very 
much true and we would have a brighter future if we did that.
    Vice Chairman Tiberi. Okay, last question. I've got a chart 
up here. I was disappointed that the ERP does not address what 
I believe is the limiting effect on economic growth potential 
from a whole host of the Administration's actions and policies 
like increased spending, debt, failure to reform the tax code, 
and the regulatory burden through regulations.
    [The chart titled ``Historical U.S. GHG Emissions, Non-
Binding Reduction Pledges, and Long-Term `Pathway' '' appears 
in the Submissions for the Record on page 45.]
    For example, on this chart it shows historic and projected 
greenhouse gas emissions, including the effects of the 
President's Clean Power Plan, and specifically the Paris 
Pledge. These policies and regulations are not even mentioned 
in the ERP, and the Administration has apparently turned away 
from the ``all of the above'' energy strategy that it was once 
in favor of as it now closes power plants and natural gas and 
nuclear power.
    So we have also seen this Administration pour on new 
financial, labor, and environmental regulations. Aren't those 
holding down economic growth? And aren't there not massive 
costs associated with such a decline in emissions, for 
instance, on this chart?
    And these policies, none of them which I just mentioned, 
are included in this Economic Report. Shouldn't the ERP discuss 
the most important issues impacting our economy, and explain 
that some government policies might constrain economic growth?
    Chairman Furman. I, you know, to some degree when you don't 
see something in the Report, it is just a matter of space. And 
we already imposed 430 pages on you. You mentioned taxes. Last 
year, for example, we had a long discussion of business tax 
reform, and I would hope you would find a lot to agree with in 
that discussion: the importance of lowering our rates, and 
making our international system more competitive.
    We just did not repeat that again this year, not because it 
is not important, just a matter of space. On regulations, I 
suspect we probably see it a little bit differently. And 
certainly our analysis of the determinants of investment growth 
in the economy finds a trajectory of investment growth we have 
seen is very well explained by a traditional model that does 
not take into account these regulatory changes.
    And the investment we have seen, performance in the U.S. 
economy has been very similar to other economies that have had 
very different regulatory trajectories. So I do not think they 
are a very important factor in explaining this macro 
phenomenon.
    Vice Chairman Tiberi. Thank you. My time has expired.
    Mr. Beyer is recognized for five minutes.
    Representative Beyer. Thank you, Mr. Chairman.
    Chairman Furman, the report notes that, quote, ``While 
investment has been low, the rate of payouts to shareholders by 
nonfinancial firms in the form of dividends or net share buy-
backs has been rising. Nonfinancial corporations are now 
returning nearly half of the funds that could be used for 
investment to stockholders.''
    One possible explanation provided by the report is that, 
quote, ``The rise in payouts to shareholders may be related to 
the decline in the startup rate of young firms who are more 
likely to reinvest their cash flow than mature firms.''
    The report also notes that the lower investment growth in 
higher share of funds returned to shareholders suggest firms 
have had more cash than they thought they could profitably 
reinvest.
    However, the rise in share buy-backs predates current 
economic circumstances. Senator Baldwin, among others, has 
pointed to a 1982 SEC rule that provided for safe harbor from 
manipulation liability at the beginning of the explosion of 
stock buy-backs.
    Prior to 1982, buy-backs were a very limited use of 
corporate profits. And buy-backs, as we know, can make earnings 
reports look better and improve short-term executive 
compensation, and foster short-term thinking in the corporate 
governance.
    Can you comment on the impact of this and other regulatory 
changes have contributed to the current investment environment? 
And should we be seeking to limit buy-backs as a means of 
promoting private-sector investment?
    Chairman Furman. So thank you for your question. I have 
certainly seen the hypothesis put forward that that 1982 
regulation has played a role in the rise of buy-backs. And it 
is certainly the case that buy-backs have risen over time. It 
is not just a recent phenomenon.
    I have not seen--reviewed the research in terms of 
assessing that link, so I do not have an opinion on that. I 
would be happy to look into it a little bit more and get back 
to you.
    I think one of the most important questions for us to ask, 
though, is what can we do to make sure companies have good 
things to invest in, and make sure that we have a really 
dynamic system in which new businesses are being formed and 
coming into existence.
    And if you have a large, mature company that does not have 
great investment projects, I would rather that money go back to 
shareholders, and then the shareholders can allocate it to some 
other part of the economy that could be of higher efficiency.
    So I usually step back and look a little bit less at where 
the money is going, and a little bit more at what is shaping 
the business decisions and the business opportunities in terms 
of the real investment prospects they have.
    Representative Beyer. Great. Thank you, very much.
    The ERP contains a very interesting discussion of the 
impact of economic rents as a driver of inequality. And I like 
your simple definition, which was: Economic rents is income 
captured by companies and workers beyond that which their 
productivity justifies.
    Rents can also be created by market consolidation and 
regulations which favors specific business or sector of 
industry over its competitors.
    Can you recommend policy approaches to address the 
undeserved rents?
    Chairman Furman. Sure. One is something that Senator Lee 
and Senator Klobuchar held a hearing on a few weeks ago, which 
is occupational licensing. The fact that at the state level now 
25 percent of occupations you need a license to get that 
reduces our ability to move between jobs. If you are one of the 
lucky people with a license, it lets you command a premium.
    Land use restrictions that drive up the cost of living in 
certain areas also create rents, both literally and in the 
economic sense.
    Greater degree of competition is important in this regard. 
But the other thing I would say is, some rents are inevitable 
and it is a question of how they are divided. So a higher 
minimum wage, or expanding workers' voice, including labor 
unions, would help make sure that when you are dividing the pie 
it gets divided a little bit more towards the labor end.
    Representative Beyer. Thank you. You know, Mr. Chairman, we 
keep hearing about mandatory spending continuing to increase, 
and that at some point in our lifetime it will be 100 percent 
of federal revenues.
    Do we have a plan to address the long-term thinking about 
what we are going to do to maintain a meaningful discretionary 
part of our budget?
    Chairman Furman. We currently have much lower projected 
health care both level and growth rates going forward than the 
projections six or seven years ago. That is in part due to the 
Affordable Care Act, and in part due to a set of changes that 
were under way in our health system, and continuing to 
implement that which is most of the job of our Administration 
is really important.
    We could also take additional steps modeled on that to 
bring down the cost of health care, helping to reduce premiums, 
extend the life of Medicare, and reducing the pressure on 
discretionary spending that you cited in your question.
    Representative Beyer. Thank you, Mr. Chairman.
    Vice Chairman Tiberi. Mr. Paulsen is recognized for five 
minutes.
    Representative Paulsen. Thank you, Mr. Chairman, and thank 
you Dr. Furman for being here and following up on the report.
    It is interesting to me because some of the numbers you 
cited and that the others cite are often cites in terms of 
numbers, and the economy is back on track. We have had the 
fastest, we have had the best, and we have had records.
    Here is another number that I think is really critical: The 
U.S. Bureau of Labor Statistics announced that for all of 2015, 
all of last year, that we had U.S. productivity--labor 
productivity rose only 0.6 percent. So this is the fifth year 
in a row where that growth has been below 1 percent.
    So since the U.S. started collecting this data, going back 
all the way to 1947 up until now, there has never, ever been 
such a poor five-year stretch because we have had five years in 
a row where it has been below 1 percent.
    So knowing that is the case, this is really important, the 
link between increases in labor productivity and the average 
U.S. standard of living, one example now estimates for instance 
that because of the annual increases in labor productivity of 3 
percent, if you had 3 percent the average standard of living 
would double in just about 24 years here in the United States.
    But now if you compare it to the last five years we have 
had with low productivity growth, we have actually changed it 
where the average standard of living will not be doubled until 
every 139 years. So 139 years to double our standard of living.
    So these are numbers I think that are behind what many 
people feel, or sense that they feel it is the disappearing of 
the American Dream. And it is probably why 72 percent of the 
public feels we are in a recession right now, even though 
technically we are not.
    So I am not a doctor, but I think one of the rules we have 
in medicine is ``do no harm.'' So just in terms of that 
question, Mr. Furman, to what end do you or the Administration, 
what thoughts have you given? What analysis have you provided? 
Or do you acknowledge that the cumulative effect of a lot of 
regulations on small, on medium, on large businesses has had on 
a lack of productivity growth, and the effect that that is now 
having on a lower standard of living in the United States?
    Chairman Furman. Thank you for your question, and I think 
you are right to identify productivity as one of the biggest 
challenges our economy faces. An analysis by the San Francisco 
Fed put the date at around 2004 when productivity growth 
started to slow.
    It is something we have seen, as I have said in other 
contexts, across a range of other countries. The United 
States--and one of the reasons I am optimistic about the United 
States--is over the last 10 years we have had the fastest 
productivity growth of any of the other G-7 economies. But we 
certainly have not had enough. As you said, that plays a big 
role in terms of what future we can expect for wage growth. And 
so I think the most important question is what steps can we 
take?
    I would suggest expanding markets abroad, through steps 
like TPP. Reforming our business tax system, lowering the rate 
and reforming the base. Investing more in infrastructure. 
Investing more in research and development. And bringing down 
our deficit to free up more private capital for investment.
    Those are five really important steps we could take to 
increase our productivity growth.
    Representative Paulsen. And I would agree. Tax reform. 
Expanded trade opportunities. Sell more American goods and 
services overseas. Get the money back home.
    But what about the regulatory environment? I mean, do you 
acknowledge, or have you done analysis just on the weight of 
regulations from a cumulative effect that that has actually 
had?
    I mean, it's a consistent message that I hear from my 
employers that I visit with in Minnesota all the time.
    Chairman Furman. I don't think the--I think it is very 
important to get regulations right. And one of our jobs at CEA 
is to participate in the process by which Executive Branch 
regulations are reviewed. And we take that responsibility very 
seriously and work hard to get the benefits as high relative to 
the costs as you possibly can.
    Often that means doing regulations in a way that is 
flexible, that uses market mechanisms. I think if you do that, 
it can be consistent with a stronger economy and strong 
productivity growth.
    Representative Paulsen. Thank you, Mr. Chairman.
    Vice Chairman Tiberi. Thank you. Congressman Delaney is 
recognized for five minutes.
    Representative Delaney. Thank you, Mr. Chairman. I also 
want to welcome Chairman Furman and thank you for your very 
intelligent report and testimony here today. It also has pretty 
significant throw weight associated with it, so it is a great 
work product, as usual.
    I was going to ask about economic rents, but my friend from 
Virginia already covered that, so I wanted to actually go back 
to a point that was raised by the Chairman about the Paris 
Accord, and thinking about this debate about economic growth as 
it relates to how we position the country around climate 
change.
    So when you think of two postures, one that is more forward 
leaning as it relates to climate change--in other words, 
setting goals like 50 percent clean electricity by 2030, or 
various goals that are achievable based on current technology 
but aspirational--you know, stretch goals--versus not taking 
these steps, and not putting the proper incentives in.
    How do you think about that as it relates, putting aside 
environmental stewardship, but just as a pure matter of 
economics, which posture will drive greater economic growth for 
the United States?
    Chairman Furman. I think acting as soon as possible to 
create as predictable a path for the future, and one that is, 
as you said, is achievable but a little bit of a stretch to 
make sure we are challenging ourselves, is the thing that makes 
the most economic sense, especially in a world where most every 
other country in the world is doing the same thing.
    And so some of the progress we have seen in solar energy, 
in wind, in conserving energy, all of that is helping to make 
sure jobs are located here in the United States.
    Representative Delaney. And when you think about job 
creation opportunity in carbon-intensive industries versus non-
carbon-intensive industries, what does the data suggest in 
terms of both--what it is likely to do to our economic growth, 
but also this notion, and I may be wrong about this, but my 
sense is that the carbon-intensive industries have become much 
more automated and therefore are not actually driving labor, 
and in fact they're not, even as they produce the same amount 
of energy, they are not reducing their labor participation in 
these industries, versus the clean energy, green energy, 
whatever you want to call it, that actually tend to be more 
labor intensive. Do you have a view on that?
    Chairman Furman. Yes. So that is my understanding, as well, 
that a lot of the traditional carbon-intensive industries are 
very capital heavy. It is a continuum, though.
    So natural gas, for example, has carbon, but it has half as 
much carbon, beginning to end, as coal would have. And we have 
had substantial increases in natural gas production, and that 
has helped to create jobs in our country.
    And I think that is a good thing, and something that we 
would welcome and encourage. It is also something that is 
compatible with how we are trying to hit our goals for climate 
change. But then solar and wind, and a range of renewables, and 
the set of industries around those, as you said, are very labor 
intensive.
    Representative Delaney. And then when you think about 
economic risk, or threats to American prosperity, if you will, 
because as we have seen from the economic performance that this 
country has realized across the last seven years, particularly 
relative to our competitors--which this might be one of the 
greatest periods of time when we have outpaced the rest of the 
world in terms of how we have recovered from the financial 
crisis and how well our economy is doing relative to other 
places, and how less dependent we are on other parts of the 
world. And so things like what is happening in the developed 
world are affecting us less than anywhere else.
    But when we think about that threat, Mark Carney, the 
Chairman of the Bank of England, gave a speech about a year ago 
where he talked about one of the risks to financial markets 
that he saw was in fact climate change. Because, he said, there 
might be a point in time when people actually--it may not be 
when some of the catastrophic scenarios occur, but when people 
actually come to the view that it will be a reality, and there 
is a dramatic repricing of assets based on that.
    How do you think about that in terms of risk to our economy 
if we do not deal with it in a prudent way?
    Chairman Furman. Right. So----
    Representative Delaney. And do you have macro views as to 
how much climate change could hurt our economy?
    Chairman Furman. So we, the Administration has what is 
called ``the social cost of carbon.'' It is an estimate of how 
much each ton of carbon costs us economically. Our estimate is 
about $40 a ton that we use as an input into the rulemaking 
process.
    That estimate does not include the uncertainty in tail 
risks associated with climate change, and that is a lot of what 
Mark Carney was talking about in that speech you referred to. 
And that might even be a larger and more consequential cost 
than just this.
    And then at the other end, the sooner you deal with it, the 
cheaper and more efficient it is. If you waited 30 years, it 
would be quite costly to our economy to address.
    Representative Delaney. Great. Thank you, Chairman.
    Chairman Furman. Thank you.
    Vice Chairman Tiberi. Senator Lee is addressed--excuse me, 
is recognized for five minutes.
    Senator Lee. Thank you, Mr. Chairman.
    Thank you, Chairman Furman, for coming to testify today. I 
want to thank you also, once again, for coming to testify on 
occupational licensing just last month in the Judiciary 
Committee.
    I would like to speak with you about innovation and get 
your thoughts on a piece of your report that focused on the 
potential job market effects of robots.
    It seems that we might be nearing a really significant 
technological inflection point, one that could have profound 
implications for our economy. Boston Dynamics continues to 
release videos of robots with incredible mobility and 
coordination, while industrial applications involving machine 
learning and analytical algorithms that at some level simulate 
cognition continue to advance.
    Some observers have suggested that we may be on the edge of 
a new wave of innovation, and that this new wave of innovation 
might in some ways be similar to that which was spurred on by 
the invention of the internal combustion engine, for example, 
which of course effectively led to a really sharp and 
economically significant decline in the use of horses.
    First of all, as policymakers should we be thinking about 
automation as a discrete issue? Or is it better thought of as a 
piece of a larger challenge involving globalization, trade, and 
a number of other similar factors?
    I am referring in particular to the challenges facing lower 
skilled, lower income workers and their jobs.
    Chairman Furman. I think that is a great question, and it 
is something that I know I grapple with all the time. I think 
to some degree that is all one set of issues. But I think 
automation brings it to the fore in a very direct way.
    In theory, automation should not present any problem at 
all. We have had automation for thousands of years, and we 
always find more jobs for people. But in practice that can come 
at a cost, either in terms of inequality if you do not have the 
skills to benefit from it, or some people who get displaced do 
not find another job and you might call it transitional or 
temporary, but that could last for decades.
    Senator Lee. Right, right, which is part of why I raised 
the question here. This one could be different in some ways, 
and I was looking to try to stay ahead of the curve.
    Your report estimates a high likelihood that jobs today 
paying less than $20 per hour will eventually be automated. 
There does not seem to be a hard timetable for your projection, 
but is that accurate?
    Chairman Furman. That is accurate. And we were drawing on 
research that was done at Oxford in that regard. McKinsey has 
also done their own research that reaches similar conclusions 
to what is presented there.
    Senator Lee. The current Administration supports of course 
raising the minimum wage. And obviously every policy has 
tradeoffs. That is what we try to hash out in these debates. 
And one of the things we discuss in this Committee are the 
economic implications of policies like that one.
    But if low-paying jobs are the ones that are most 
threatened, most potentially threatened by automation, doesn't 
raising the minimum wage just raise the cost of low-skilled 
work and incentivize employers to accelerate the process of 
automating these jobs, the very jobs that we are perhaps most 
concerned about?
    Chairman Furman. I mean the evidence that I have seen for 
moderate increases in the minimum wage phased in over time, 
similar to the types of proposals that have been put forward in 
Congress, has found that they don't have adverse effects on 
employment.
    But certainly if you were to raise the minimum wage to $30 
an hour, you know, I would expect you would have a tradeoff.
    Senator Lee. At some point you are going to get there, to a 
tradeoff, and perhaps when you factor in the effects of 
automation that tradeoff could end up being significant.
    Chairman Furman. I think it is important as part of an 
overall strategy to make sure our workers have more skills and 
more productivity.
    Senator Lee. Got it. And I want to be clear. I am not 
trying to get you to disavow the President's policies here. I 
know that is not something that is going to happen, certainly 
not in this forum and not in your current position, but what I 
am asking is:
    If our goal as a society is that an honest day's work 
should earn an honest day's wage, and machines are going to 
make it harder, and in some cases perhaps impossible for low-
skilled, entry-level Americans to find an honest day's work, 
doesn't the basic design of our social safety net have to 
perhaps look a lot different than it does today?
    Chairman Furman. I think it certainly has implications for 
how we design our social safety net, and I think that is an 
important conversation to have. I would not throw out the 
lessons of the last 50 years, and we are certain of what has 
worked and what has not, I think minimum wage has worked. I 
think Earned Income Tax Credit has worked. But I think we 
should be thinking hard about these questions going forward, as 
well.
    Senator Lee. Okay. Thank you very much, Mr. Furman. Thank 
you, Mr. Chairman.
    Vice Chairman Tiberi. Thank you. Senator Klobuchar is 
recognized for five minutes.
    Senator Klobuchar. Thank you very much, Mr. Chairman, and 
thank you. I am sorry that Senator Coats and I have had a 
number of votes going on here.
    I appreciate the words about the improvement of the 
economy. I think we have all seen that. Our State is down to 
3.7 percent unemployment. But we also know there are 
challenges. You raised one, Mr. Chairman, about income 
inequality. We have challenges for workers that are retired and 
have issues with their pensions.
    In fact, right behind you there, who I am going to meet 
with later, is Sherman Liimatainen who is from northern 
Minnesota, spent his whole life. Started as a janitor, was then 
a Teamster and a union delegate. He is working on a pension 
issue because of a decision that is inordinately affecting a 
lot of states in the Midwest that we are trying to work on.
    But another issue up in northern Minnesota that I know that 
you are well aware of is the current employment situation with 
the iron ore mining affected by the over-production in many 
countries, combined with illegal steel dumping that we know is 
going on. And I have really appreciated the recent moves of the 
Administration to try to be more aggressive in the enforcement, 
including adding nearly 38 new Commerce Department employees to 
focus on trade enforcement from the budget money we got last 
year, as well as working on the enforcement actions, including 
some new tariffs today.
    Could you talk about that industry, and what is going on, 
and what you think the future is?
    Chairman Furman. Yes. Thank you. And this is an issue we do 
pay a lot of attention to, Senator.
    The backdrop for this is the substantial global over-
capacity in steel. And that steel capacity is 70 percent 
outside of the OECD economies, much of it in economies that 
have made very heavy state investments in supporting their 
steel industries.
    This overcapacity has collided with a collapse in worldwide 
demand for a range of commodities and products, including 
steel, and the result has been a 35 percent decline in steel 
prices in 2015, which is having a significant impact on our 
industry and in your State, among others.
    We have, as you said, taken 149 antidumping and 
countervailing duty actions, 40 of them in 2015 alone. It is 
the highest rate of actions in at least 14 years. That has 
contributed to the fact that steel imports are down 13 months--
13 percent over the last year. And we are going to continue to 
rigorously enforce our trade laws, including taking advantage 
of some of the new tools that Congress gave us with the Customs 
Enforcement bill that the President signed I believe last week.
    It is important to understand that it can't--that domestic 
trade enforcement is an important part of the answer, but 
international coordination is also critical. U.S. imports 
represent only 10 percent of global exports, and we need to be 
working together with other countries, both steel importing 
countries who are dealing with many of the same issues our 
economy is, as well as steel exporting countries like China to 
push on their overcapacity.
    Senator Klobuchar. Very good. Well as I said, the 
President's Chief of Staff came up to Minnesota. We have had 
thousands of layoffs, and it was really helpful to have him 
there.
    I am going to ask you more questions about this pension 
issue in writing. But could you just talk in general about the 
importance in a volatile economy where you have on the one hand 
the Millenials dealing with the Gig economy, and having trouble 
saving because they do not have that kind of structure in place 
that we once had.
    And then you have some seniors who have retired but things 
change with their pensions and it makes it very difficult for 
them.
    So could you talk about just this importance in general of 
retirement?
    Chairman Furman. Retirement security is very important. A 
lot of people are not prepared for retirement, and retirement 
security is enhanced when you are depending on multiple 
sources, Social Security of course being one, private savings 
being another, and pensions.
    Pensions include both defined contribution and defined 
benefit. Defined benefit have faced a number of challenges in 
our economy, especially in the multi-employer segment. And that 
is an important issue. And the Pension Benefit Guaranty 
Corporation plays an important role in helping to make sure 
that those pensions function as well as they can.
    Senator Klobuchar. Okay. And you know this issue with the 
Central States Pension Plan, which we can talk about more in 
the future, is affecting two-thirds of the nearly 400,000 
participants who are going to have their pensions reduced as 
high as 70 percent. And so it is a real, big concern in 
northern Minnesota, which is the same place where all the 
layoffs of iron ore miners are occurring especially.
    So, thank you.
    Chairman Furman. Okay. Thank you.
    Vice Chairman Tiberi. Congressman Grothman is recognized 
for five minutes.
    Representative Grothman. Thanks for calling on me, and 
Chairman Furman I am honored to have a chance to be on a 
committee that you are testifying before.
    One of the things I think we can all agree about is the 
labor participation rate now is a little bit disappointing. And 
when I get around my District, one of the big complaints 
employers have is they have a hard time finding employees.
    Okay? On the other hand, they also feel that their major 
competition for those employees is the government itself 
because of all the government benefits that you get if you 
don't work, or don't work as hard as you can.
    You mentioned that the unemployment rate has dropped during 
the Obama Administration, which it has, but at the same time 
the unemployment has dropped SNAP enrollment has gone up by 12 
million, okay?
    So it seems as though we are paying people either not to 
work at all, or not to work to their abilities. Could you 
comment on whether or not you feel all of the benefits out 
there that are available to you if you are making less money 
are contributing to the low labor participation rate, or 
contributing to people not achieving their full potential?
    Chairman Furman. Right. So thank you for your question.
    For men between the age of 25 and 54, their labor force 
participation rate has fallen nearly every year since the 
1950s. So this is a very long-standing phenomenon.
    For women since the late 1990s, this happened even though 
we changed our social assistance system to be much less 
something that you would get regardless of whether or not you 
were working to something that you pretty much in most cases 
really requires you to work to get. In fact, many elements of 
our social assistance system----
    Representative Grothman. I am okay to a certain extent you 
are talking about Earned Income Tax Credit there, which 
requires you to work a little, but as soon as you work more 
than a little they begin to take it away. But go ahead.
    Chairman Furman. I was going to say the evidence on the 
Earned Income Tax Credit is that it does increase labor force 
participation because people deciding whether to work or not 
work, it's a several thousand dollar difference, and then you 
are right, there is a phase-in range, and a phase-out range, 
and those could have effects as well. But those appear to be 
dominated by the large amount of money that you get as an 
additional bonus for working.
    Representative Grothman. I am going to disagree with you, 
but I am going to mention another problem we have.
    Economists have found there is a positive correlation 
between stable two-parent households and better outcomes for 
families. Now it is not very difficult to come up with 
hypotheticals in which people are losing over $30,000--a single 
parent could lose over $30,000 a year by getting married.
    Do you view--and I am hearing exact examples of that in my 
District. You know, parents saying my son can't get married and 
lose the benefits. That sort of thing.
    Can you think of anything to do in the remaining time in 
this Administration, or any plans for the future that you could 
suggest for future administrations to do something about this 
huge marriage penalty we have right now?
    Chairman Furman. Thanks for your question. President Bush 
passed some meaningful marriage penalty relief for many middle 
class families which President Obama signed into law on a 
permanent basis.
    There is a substantial marriage penalty in the Earned 
Income Tax Credit that was reduced in 2009, that we just made 
permanent on a bipartisan basis this past December.
    And then one of the proposals in the President's budget 
which I alluded to in response to a question from Ranking 
Member Maloney gets at the fact that secondary earners often 
face higher tax rates in the United States than in many other 
countries, and it can discourage them from working.
    And so we have a tax benefit for secondary earners that we 
have proposed.
    Representative Grothman. Would you agree, though, that we 
still have over a $30,000 penalty say for a single parent 
making, with a couple of kids, making $10,000 to $15,000 a 
year, if they do marry somebody making $40,000 or $50,000 a 
year? Would you agree with those figures?
    Chairman Furman. I think for most middle class families we 
do not have a marriage penalty in the tax code anymore because 
of the steps taken----
    Representative Grothman. I am not talking the tax code. I 
am taking all the benefits, the Earned Income Tax, the SNAP 
program, the----
    Chairman Furman. That is higher than I would have put the 
number at, and in part because we have taken a number of steps. 
But there is certainly more we can do.
    Representative Grothman. Yes, I will have to get you those 
figures. I will give you one more question. Before you talked 
about the fact that you felt we cut spending too much in, 
whatever, 2011, 2010, and it would have been better not to. 
Okay, so I take it you are a Keynesian economist, you kind of 
believe that deficit spending improves the economy.
    In the budget that President Obama has recently submitted 
to Congress, you also have a larger deficit. It always kind of 
makes me wonder about you folks--and I love all people--but if 
the time to run a deficit is when the economy is weak as it was 
in 2010-2011, and now that we have had such a long period of 
time of lower employment, though our incomes are not where we 
want, and you are still running a large deficit, is there ever 
a time that economists such as yourself would suggest running a 
surplus?
    Chairman Furman. The goal that we have in mind is having 
the debt on a declining path relative to the size of the 
economy, so that you are shrinking it relative to the economy. 
That is not something that under current law we would achieve. 
It is something that additional steps, including greater 
spending reduction and reducing tax benefits, especially for 
high income households, would help us achieve.
    Vice Chairman Tiberi. The gentleman's time has expired.
    Senator Casey is recognized for five minutes.
    Senator Casey. Thanks very much.
    Mr. Chairman, thank you for being here, and we have a day 
when folks were voting. In the Senate we are voting. So I will 
probably have just one question, but I think it is a critically 
important topic.
    We could spend hours on this one topic, and I am glad that 
you have in your work and in the report and the work of the 
Administration, focused on what we sometimes call early care 
and learning. Early care meaning quality, affordable child 
care; and learning, of course, pre-kindergarten education.
    But I noted--and I think they are both essential. And I see 
there is a relationship between the two. I noted on page 4 of 
your testimony you said, and I quote, that one of the chapters 
focuses on, quote, ``disparities in opportunity that appear at 
an early age in the long run benefits of investments in the 
education, health, and well being of children.'' Then you go on 
to talk about the gaps in the early health and cognitive skills 
of children.
    And then you conclude by saying, quote, ``Research 
demonstrates that direct investments in children can help close 
gaps in these important outcomes and can have lasting positive 
effects.'' Unquote. Then you have a chart there about cognitive 
skills, kindergarten versus fifth grade.
    I have been working on these issues for years. And I think 
the connection between learning and earning is not only 
demonstrated but is something we should bear in mind: that if 
kids learn more now, meaning when they are in those early 
years, they will literally earn more later. And, frankly, we 
are all better off with that investment.
    So I guess I wanted to ask you, number one, can you walk 
through some of the benefits that you see, maybe purely from an 
economic or workforce perspective, on making those investments 
in children in the dawn of their life?
    Chairman Furman. Yes. Thank you so much for that question 
and bringing up that issue, because I think that is a really 
important chapter of the report and a really important example 
of how we can both promote productivity growth which we have 
been talking about in this hearing, and make sure that that 
productivity growth is shared more widely.
    When you do an economic analysis of these types of early 
care programs and early education programs you find that it has 
two sets of benefits. One is actually an immediate benefit 
because it enables the parents, more often than not the mother, 
to work more if she chooses to do so. And it facilitates 
greater income for that family which itself is important for a 
learning environment for that child.
    And then the second set of benefits, the ones you have 
talked about, are a robust connection between education as 
young as 3, 4, 5, and how much you earn in that 25, 30, 35 
years of age. And when you look at for example just the extra 
tax revenue collected on those future earnings, that is enough 
to repay a substantial portion if not all of the initial cost 
of these programs.
    I am not suggesting that we take that into account in the 
budgetary treatment of them, but in evaluating whether or not 
it is a good idea to undertake those programs that is certainly 
relevant.
    Senator Casey. Yes. I know there are a number of studies 
that show the return on investment, which is really 
extraordinary. Sometimes it is you spend a buck on high-quality 
early learning and you get back multiples of that, sometimes 
into the teens.
    Chairman Furman. Yes.
    Senator Casey. So it is significant. I will, in the 
interests of time because I have to run to vote, I will yield 
back one minute and seven seconds.
    Vice Chairman Tiberi. Thank you. We appreciate it. Mr. 
Hanna is recognized for five minutes.
    Representative Hanna. Thank you very much. Thank you, Mr. 
Chairman. I want to say that I could not agree more with 
Senator Casey. The Arne Duncan Strong Start For Children Act, 
our past Secretary, I supported that and am pleased to be the 
lead of that in the House. And every possible matrix suggests 
that universal pre-K, or as near as we can get to it, is one of 
the best investments a society can make.
    But on another matter, you talked about corporate 
inversions, and our high corporate tax rate vis-a-vis other 
countries, and mentioned that you believe it is an issue. How 
would you correct it? Because the issue has been demagogued I 
think by both sides in ways that are not helpful.
    You know, certainly I have my opinion about it, but what 
would you like to see happen, Doctor?
    Chairman Furman. Sure. I think there is a good way to 
address it, and there is an even better way to address it. The 
good way to address it would be to take a simple step of 
banning the practice of merging with a smaller foreign company 
and changing your tax domicile overseas, and thus claiming the 
set of benefits associated with being an overseas corporation. 
That is a step we could take today and it would reduce 
inversions.
    The even better way to deal with it would be to do that at 
the same time that we make it more attractive to invest in the 
United States by reforming our business tax system, lowering 
the tax base----
    Representative Hanna. Ultimately, though, one is not 
effective if you do not do the other.
    Chairman Furman. I think we could do--I think it would be--
the inversions are happening so quickly that I do not think we 
can afford to wait. And if it is going to take a long time to 
reform the tax code as a whole, then I would just deal with the 
inversions issue by itself. I think that would be the 
economically prudent thing to do.
    The even better thing would be to reform the business tax 
system as a whole to make it more attractive to be here at the 
same time you're making it harder to invert.
    Representative Hanna. Ultimately, I mean we are talking 
about larger businesses being co-opted by smaller ones.
    Chairman Furman. Exactly.
    Representative Hanna. But you also cannot stop the reverse. 
And the idea of building an environment that makes it 
fundamentally attractive to be here, which Chairman Brady 
supports I think, is really what we should be considering. And 
the fact that we have the highest corporate tax rates are among 
them.
    And the world is a fundamental problem when you look at 
companies like Pfizer and Johnson Controls, and others, and 
Apple, and the conversation that ensues.
    I want to ask you, though, about something that I am 
disappointed that I am afraid that we are not going to be 
addressing this year. And that is the Trans-Pacific 
Partnership. And I would like to give you an opportunity to 
talk about it in any way you would like, without rendering an 
opinion if you do not want to, but the idea that we are not 
taking up this conversation is deeply disturbing to me, 
regardless of where it goes.
    Chairman Furman. Thanks for that.
    As I said in my opening statement, one of the challenges 
facing the U.S. economy is that it is hard to export--increase 
your exports to a world where growth in the rest of the world 
is slower. In that environment, one of the steps we could take 
that could help make it easier for us would be to reduce or 
eliminate 18,000 taxes that our exporters face when they try to 
export to abroad. The tariffs that these 11 other countries in 
the TPP have.
    One study found not just that there would be substantial 
benefits from doing TPP, it also found that if you wait a year 
to do it you lose $94 billion. You would lose more than $600 or 
$700 per household in our economy.
    So I think it is not just important to do, it is important 
to do it as expeditiously as possible.
    Representative Hanna. So you have heard the conversation on 
the street that unions are deeply against it, yet I find that 
most people are very much uninformed or misinformed. What do 
you say to those people, Doctor?
    Chairman Furman. I say the United States is already a very 
open economy. It is very easy for other countries to sell here. 
What we are trying to do is break down the barriers that our 
companies face to countries around the world.
    We also have very high standards in our country--labor, 
environment. This would ensure that other countries are raising 
their standards and put us in a better position to compete on a 
level playing field.
    Representative Hanna. So that the net is a big benefit.
    Chairman Furman. The net is a big benefit for workers, a 
big benefit for productivity, a big benefit for our economy 
overall.
    Representative Hanna. How can we get that message out? I 
mean, it just does not seem to be getting any traction?
    Chairman Furman. It is certainly something we have been 
trying to communicate and really make it tangible, that these 
are about cutting taxes on American exporters, and American 
exporters support higher-paid jobs.
    Representative Hanna. Thank you, Doctor, my time has 
expired.
    Chairman Coats [presiding]. Doctor, thank you. It is my 
understanding that Congressman Beyer has some questions, and 
feel free to take whatever time you need, and you're on.
    Representative Beyer. Thank you, Mr. Chairman, very much.
    Just two questions. Chairman Furman, on this Committee we 
have often focused on the lost economic gap between a perceived 
or a titular 4 percent growth rate versus the 1, 2, 2.5 that we 
have. And we look back over the last most of our lifetimes when 
we have higher rates of growth.
    But I keep reading in various newspapers and magazines that 
absent some dramatic new disruptive technology, the 
agricultural revolution, the manufacturing revolution, the IT 
revolution, that we are destined to long-term growth rates of 
between 1 and 2 percent.
    Your perspective?
    Chairman Furman. Growth rates are a function of two things. 
One, how much is labor growing? And the second is how much is 
productivity growing?
    Labor is growing more slowly now than in the past, for 
demographic reasons. If you look during the 1980s, for example, 
and you look at the growth of the population between age 25 to 
54--this is the group of people most likely to be working--that 
was 2.3 percent annually.
    Now the growth of the population in that age bracket is 
negative zero point one percent annually. This is a pure 
demographic fact. I am not talking about who is working or not 
working. It is just who is alive in that age range.
    And so the Baby Boom really helped propel our growth 
forward. That is turning into a retirement boom. And for that 
reason, the labor component of growth is lower today and is 
going to be lower in the future.
    The second component of growth is productivity. And there 
is a big debate that you alluded to in the economics profession 
about what the outlook for productivity growth is. I think, you 
know, no one really knows. And it depends on what inventions 
people have in the future. And if I knew what inventions people 
would have in the future, I would go out and invent them myself 
and probably not be before your Committee today.
    [Laughter.]
    I think there are a lot of reason to think we have a lot of 
potential. There is a lot of exciting technological 
developments in our economy, a lot of questions about how to 
apply them and make sure we are using them as well as possible. 
But I certainly would feel better if we were investing more in 
research, infrastructure, trade, business tax, all the 
different steps that we should be taking--lower deficit, all 
the different steps.
    Representative Beyer. Thank you. One more question. China 
has lost about $800 billion in currency reserves over the last 
12 months. What are your views on the drivers of this capital 
outflow? Do you expect them to continue? And how about China's 
reserve adequacy? And, really, what is its impact on our 
economy?
    Chairman Furman. That is certainly a really important 
question. And China has suffered from not always communicating 
its policies as clearly and as transparently as we would like 
to see them do, and as the market would like to see them do.
    And one consequence, when you do not have transparent 
market-oriented policies that are communicated clearly, is that 
you can see various abrupt changes in financial markets.
    So I think that is part of what is going on with China. 
China still has very substantial reserves. They have I think 
more than enough wherewithal to deal with the economic 
challenges that they face. The question is: Are they going to 
make sure that they are doing the right reforms, the right 
transparent policies, communicating them in the right way such 
that they are taking advantage of those resources to address 
the challenges they have.
    Representative Beyer. Thank you, Mr. Chairman. Mr. 
Chairman, I yield back.
    Chairman Coats. Thank you.
    Congressman Grothman.
    Representative Grothman. Yeah, I am kind of going a little 
different from the way Congressman Hanna went here. I know 
there are countries around the world that want to get the kids 
as soon as possible in the loving arms of school and away from 
their parents. In your report you emphasize that Head Start is 
a good way to improve economic success in children.
    Your own HHS has found that Head Start has little or no 
impact in the long run across 22 different measures, and that 
actually 3-year-olds who attended Head Start were doing worse 
in math than their peers.
    Now I know awhile before that the Brookings Institution, 
which were you affiliated with.
    Chairman Furman. At one time, yes.
    Representative Grothman. Themselves came out with the idea 
that Head Start really was not up to snuff.
    Given that these studies that show that, you know, Head 
Start is not that great, that it is better to leave the kids 
with their parents--and Head Start of course it seems that they 
are the poorer kids, not kids across the board--why do you keep 
pushing this daycare stuff to get the kids away from their 
parents?
    Chairman Furman. In the report we review several dozen 
studies conducted over a few decades. Any given study is going 
to have a different finding. We show that in broad terms they 
consistently find positive results.
    A number of these studies were authored by Nobel Prize 
winning economist Jim Heckman from the University of Chicago, 
who happens to be a Republican as well--which is not relevant 
for evaluating his research--but I think this is a widely 
accepted finding in the economics profession.
    Certainly high quality is important. You do not want to 
just do--you want to pay attention to the quality of what you 
are doing, not just anything.
    Representative Grothman. You are familiar with the 
Brookings deal, too, right?
    Chairman Furman. Yes.
    Representative Grothman. Alright, so there are studies out 
there, HHS Brookings that it does not work out that well.
    I will give you one more question. I am alarmed about the 
growing income gap in this country. And one of the things that 
I think contributed to it was the quantitative easing by the 
Federal Reserve, which as far as I can see is pushing money 
towards the, almost the most obscenely wealthy Americans, and 
kind of feeling that you are going to grow the economy that 
way.
    I realize you do not have direct control over the Fed, but 
could you comment? Do you think it was a mistake in trying to 
juice the economy for the Fed in essence to financially benefit 
some of the wealthiest, or I guess wealthiest Americans?
    I guess their idea was they thought it would trickle down, 
but do you think that was a mistake? Or is there a moral 
problem with that? Wouldn't you have thought it would have been 
better off if we had kind of debased the currency to at least 
give money more to the working stiff?
    Chairman Furman. I do not comment on policy actions of the 
Federal Reserve. We think it is better for them to undertake 
those independently. But Congress granted the Federal Reserve a 
dual mandate in terms of employment and inflation, and I think 
any steps they take consistent with that mandate are ones that 
I would agree are in the best interests of our country.
    Representative Grothman. So you agree with--am I wrong in 
thinking that quantitative easing, insofar as it gives an 
immediate benefit to somebody, gives an immediate benefit to 
the big Wall Street banks?
    Chairman Furman. There is a large economic literature on 
the sources of inequality, and I do not think any major 
economic research thinks that monetary policy one way or the 
other is an important part of the explanation for changes in 
inequality.
    Representative Grothman. Okay. Thank you for the additional 
time, Mr. Chairman.
    Chairman Coats. Congressman Tiberi.
    Vice Chairman Tiberi. Thank you, Chairman.
    Thank you, Chairman Furman, for being here today and your 
sincerity on this difficult topic. I want to associate myself, 
just to keep in the back of your mind, with what Senator Lee 
said. I look at my own experience. I worked at McDonalds my 
first job, and I was really excited about six months in when I 
got a minimum wage increase. I got an increase in my pay, which 
was not very much, but the impact, good for me, was not so good 
on the two guys that got hired after me because they lost their 
jobs.
    And I think that was what Senator Lee was talking about. 
But let me give you a better example of what I was thinking 
about when he was talking.
    My next job in high school was pumping gas at a gas 
station. I am dating myself here. You cannot get anyone to pump 
gas anymore at a gas station. You do it yourself. And I 
remember the owner, a small businessman, telling us, most of us 
in high school and college, that the biggest cost driver of his 
business was us. And so we better perform.
    And I did not have any skills in high school, but I learned 
how to pump gas. Well today that job is gone. In many service 
areas we find in our economy employers trying to figure out 
ways to reduce cost. And one of the few areas through 
technology that they can reduce cost impacts those high school 
kids that do not have those skills that they have yet to learn.
    And we have in our State of Ohio, which is reflected really 
in many other states, more and more individuals with a lack of 
skills not being able to find those service jobs that once were 
plentiful when I was a kid.
    In urban areas, it is even more tragic, where unemployment 
among Blacks and Hispanics are double-digits. So it is not a 
question, just to put in the back of your mind, I worry as we 
have meaningful, well intended, regulations from the Federal 
Government that sometimes they have just the opposite effect, 
which I think was Senator Lee's point, of trying to allow for 
those who have the skill set maybe that I had when I was 16 and 
had not yet developed, are being left behind. So, just a 
thought. And thanks for your sincerity again.
    Chairman Furman. Okay. Thank you.
    Chairman Coats. Well, Congressman, if you think you are 
dating yourself on your first job, wait until I tell you what 
my first job was.
    [Laughter.]
    I see Senator Peters has arrived. Senator, just in the nick 
of time. You are on.
    Senator Peters. Well thank you, Mr. Chairman.
    Chairman Coats. You have not come to a committee meeting in 
a long time where you walk in, sit down, and the chairman says 
you're on.
    Senator Peters. I need to do this more often. This is 
great. So thank you for that.
    And, Chairman Furman, thank you so much for being here as 
well to talk about how issues related to the economy and the 
future. I have a question regarding some of the long-term 
structural changes that seem to be occurring in our economy 
that I think are going to pose some potentially very 
significant challenges for us in the decades ahead.
    I enjoyed reading The Economic Report of The President, 
which I am sure most people enjoyed reading and spending some 
time with it, but some very interesting discussion about 
growing income inequality, and job dislocations, job creation 
dynamism, et cetera.
    But one issue that is addressed in here, and I think you 
have done some studies related to it as well, deals with the 
pace of technological change and the impact that that is having 
on the job market. And I think I heard some of that as I walked 
in here today.
    It has always been that folks have always feared that 
technology would disrupt jobs, jobs would be destroyed, and we 
would have a much higher unemployment as a result of that. But 
it has never materialized, as jobs have--or as technology has 
destroyed jobs, which it has, it has always created even more 
jobs. They tend to be better jobs. They tend to be higher 
paying jobs. And a lot of the routine jobs have been displaced 
by ones that require higher education and skill training.
    But it seems as if there are a lot of folks who think that 
we may be getting to an inflection point where the technology 
is advancing to the point to where even those high-knowledge 
jobs, creative jobs, also can be done with the technology; that 
you will have jobs physicians, for example, when you look at 
Watson and the medical breakthroughs that are being done with 
Watson that can diagnose disease perhaps better than most 
physicians can do it.
    We know that for radiologists, there are machines that can 
do the job probably better than a lot of radiologists can. That 
we may be getting to the point, especially with artificial 
intelligence, that can radically transform the job market.
    In fact I know there was a recent study that I was looking 
at that thought that in the matter of the next decade or two 50 
percent of the job classifications in this country could 
probably be done better with some sort of technology than a 
human can do it, which is disturbing but it is a challenge.
    What are your thoughts on that? And if that is indeed 
something we need to be concerned about, what sort of policies 
should we be thinking about right now?
    Chairman Furman. So thank you for that. And I think this 
bears a lot of thought, and I do not think it is a particularly 
partisan issue. I do not think we have all the answers. I think 
it is something we all should be grappling with together.
    To a first approximation, I think one hypothesis you stated 
is right. For thousands of years we have invented new machines. 
They have replaced things people used to do. Most of what 
people did in the 19th Century they are not doing today, and we 
are much better off as a country for it.
    The problem is when that happens really abruptly, and when 
you are not prepared for it the consequence of that can be one 
of two things.
    One is inequality. And the 50 percent figure, if you break 
it down by income, it is higher than that if your income is 
lower, and it is lower--well lower than 50 percent if your 
income is higher. And if you see a lot of lower wage jobs 
replaced, that is reducing the demand for those types of 
workers. That lowers their wages. That raises inequality. So 
one bad side effect is inequality.
    The second is I certainly believe that over time if you 
lose a job you will be able to find another job, and hopefully 
a better job. But if a lot of people lose a job at once, 
though, that process can be long and painful. And we don't 
always make it as easy as we should.
    What we should be doing in this regard is making sure 
people have more skills to take advantage of so that they are 
complementing the innovations and benefitting more from them. 
Making sure we have a labor market that is better at moving 
people from job to job.
    The President had proposed a wage insurance program that 
would help get people back on their feet by insuring them 
against some of the wage losses associated with a job, as they 
move into a new job. And there is probably a lot more than that 
that we need to do, as well, that we need to keep thinking 
about.
    Senator Peters. Well, and that is I guess the challenge 
with the training, as well as technology, particularly with 
artificial intelligence and what the promise of that is. With 
that promise there are some significant challenges, but it may 
be difficult to train folks as well in that area.
    Now these are not things that I am worrying about happening 
in the next or five years, or perhaps 10, but at least from 
some of my reading it is something we should be very concerned 
about looking out beyond that.
    For example, I have done a lot of work with autonomous 
vehicles, and I think you have talked about autonomous 
vehicles, something we are passionate about in Detroit, which 
will have incredible applications and, most importantly, will 
save tens of thousands of lives with the types of technology 
that will make cars safer, eventually leading to autonomous 
vehicles.
    But autonomous vehicles can also have great promise for the 
economy. Would you talk a little bit about what you see 
happening with autonomous vehicles in transforming the economy 
and some of the investments that may be necessary from the 
Federal Government to make that happen?
    Chairman Furman. Yes. I think that is an important 
question. And, you know, autonomous vehicles, everyone is 
interested in them in the world right now. U.S. car makers are 
making significant investments. German car makers are. Japanese 
car makers are. Israeli technology, and the like. And I think 
that is one reason why it is really important to make sure that 
a lot of it is happening here.
    Some of that is a set of state regulations that allow 
experimentational out-testing. You know, we already let cars 
with drivers on the road. That is already quite dangerous. It 
is often safer to let these cars on the road, and to make sure 
you are not letting your fears get in the way of being able to 
undertake that type of experimentation.
    Basic research that we fund here in Washington is an 
important complement to the more applied research that is 
undertaken by the companies that are doing that. Investments in 
an infrastructure that supports both autonomous vehicles as 
well as, for example, electric cars and other types. There can 
often be a chicken-and-egg problem of if the infrastructure is 
not there they will not be there. If they are not there, the 
infrastructure will not be there.
    Well, the government can play a role with public policy in 
overcoming those types of chicken-and-egg, or network 
externality obstacles to the adoption of a technology. So I 
think there are a number of different steps that we are 
thinking about and we need to keep thinking about.
    Senator Peters. Great. Thank you so much. Appreciate it.
    Chairman Coats. Chairman, thank you so much. I want to just 
follow up with one last thing while I have you here. If you 
could take yourself out of your current job, and let's say 
you're back at Brookings, or teaching at Harvard, or whatever, 
and I came to you and I said: You know, we talked about this 
runaway mandatory spending. A lot of it related to the aging of 
the population, the bulge that existed in the Baby Boom 
generation. We have done a number of things to address that. We 
have had sequestration. We have had the tax, the revenue 
increase that raised income taxes on the highest category.
    We have, you know, economic growth will help us address 
that problem, but we still have the impact of this bulge of 
Baby Boom generation, and it is going to be with us for several 
years, and particularly effecting Social Security and Medicare, 
you know the numbers and so forth. If we were able to summon 
the will to bring together a bipartisan, bicameral Executive 
Branch working together [microphone interference]--I do not 
know why this is doing this, maybe my time is up----
    [Laughter.]
    But what would you recommend in terms of what we do now? Or 
what a next Administration, a next Congress should be thinking 
about in terms of addressing the challenge of the long-term 
problem that we have here, and doing it in a way to preserve 
the programs to assure the American people that the retirement 
benefits are going to be available to them. They are not at 
risk. Their health care entitlements are going to be available 
to them so they do not have that concern. What would you 
recommend, if that will was there and they said we want to go 
forward? What kind of formula do we have to put in place, 
particularly given what we have already done, but now what we 
clearly know that we need to do, and do it in a way that is not 
disruptive to the economy or the retirement capabilities and 
necessities of that generation?
    Chairman Furman. So thank you for that. I think if it was a 
year from now and I was not in the government, I would tell you 
look back at President Obama's last budget. It had lots of 
great ideas.
    One of them is Medicare Advantage, having competitive 
bidding that would set the reimbursement rates, rather than 
setting them the way we do now, which often results in rates 
that are too high.
    On drugs, using the same way to purchase drugs for people 
who are dually eligible for Medicare and Medicaid, as we do for 
people in Medicaid.
    Reforming the benefit structure in Medicare so that in 
appropriate ways there is more cost sharing in areas like Part 
B Home Health. Reduce the ability of Medigap to blunt some of 
that cost saving and have more income-related premiums.
    Those are some of the types of steps we could take in 
Medicare.
    What I would say is in health I would think, though, 
broader than just Medicare. I would think of the health system 
as a whole, both private and public. And the so-called Cadillac 
tax, or the tax on high-cost employer-sponsored insurance is I 
think one of the most important steps that we have to slow the 
growth of private health care. And it also results in 
additional revenue, and it is based on the idea that has been 
supported by--widely supported by both Democratic and 
Republican economists.
    I would say, more broadly, that you want to think of 
elements of the tax code. If you look at tax benefits, tax 
preferences, those are technically termed ``tax expenditures.'' 
And my predecessors like Marty Feldstein, Greg Mankiw, and 
Glenn Hubbard who served under President Reagan and President 
Bush, have all said that we should be looking at those because 
they are also on autopilot. They are also not an efficient way 
of accomplishing the goals, and not a particularly fair way, 
either.
    So I would bring that into it, and curb some of those tax 
expenditures for high-income households like the incentives we 
have for health, housing, and pensions.
    Chairman Coats. Well thanks for that. I hope we can get to 
that point without getting there by crisis. I was around in 
1983 when Social Security was about ready to go belly-up. 
President Reagan reached out to then Speaker of the House, Tip 
O'Neill. They took it out of politics. They secured about 30 
years, 30, 35 years of solvency for Social Security. So it has 
been done. It can be done. But the question is, do you have to 
have the pistol at the temple of the politician in order to get 
it done? And oftentimes mistakes can be made when you are doing 
this in crisis form rather than just laying it out and doing it 
in a logical way, which does not end up making mistakes and 
putting people at risk.
    So I think that is--I appreciate your giving us that 
template. Hopefully we can reach that point without getting to 
a crisis. I really appreciate you coming and being with us 
today, and your continuing availability to the Congress. 
Working together is the only way we are going to solve this, 
and you make it easy for us to do. We appreciate you being 
here.
    And with that--well, let me just do a couple of 
housekeeping things here. We are going to keep the record open 
for five business days so that Members can submit anything else 
that they want to submit. And that would be for you, also, if 
you so desire.
    And with that, the hearing, with thanks again to you, is 
adjourned.
    (Whereupon, at 4:04 p.m., Wednesday, March 2, 2016, the 
hearing was adjourned.)

                       SUBMISSIONS FOR THE RECORD

   Prepared Statement of Hon. Daniel Coats, Chairman, Joint Economic 
                               Committee
    Chairman Furman, welcome. Vice Chairman Tiberi, Ranking Member 
Maloney, and I appreciate your willingness to once more continue the 
longstanding tradition of the Chairman of the Council of Economic 
Advisers testifying before the Joint Economic Committee.
    This year marks the 70th anniversary of both the Council of 
Economic Advisers and the Joint Economic Committee, both of which were 
created to advise our respective branches of government on a wide range 
of matters affecting the economy. We appreciate this annual opportunity 
to engage in dialogue with you and look forward to discussing this 
year's Economic Report of the President.
    Much has been learned over the course of this slow-growth recovery, 
and these lessons will only continue for the foreseeable future. The 
current recovery has seen far slower growth than previous recoveries, 
and subdued expectations about economic, population, and labor force 
growth have placed additional pressures on federal budget constraints.
    However, I don't accept the often mentioned assertion that we have 
entered a ``new normal'' of slower economic growth. Policy reforms 
seeking to create a better tax system, rein in spending, and loosen the 
regulatory shackles restricting our economy can alter this trajectory 
by removing some of the structural barriers American workers and 
businesses face today.
    In my opinion, a lot of the problems we'd like to solve require us, 
as policymakers, to look in the mirror and see how current Federal 
Government policies are affecting the economy.
    In his final State of the Union address this year, President Obama 
stated that he wanted ``to focus on the next five years, the next 10 
years, and beyond.'' However, he omitted one of the most important 
issues that America faces in the coming years: the financial 
obligations that will come due over those time frames, and particularly 
in the ``beyond.''
    Debt was not mentioned once in his address, and how to achieve 
fiscal sustainability was not among the four questions the President 
argued that ``we as a country have to answer.'' I found this to be a 
glaring omission, given how our national debt has risen so sharply over 
the past seven years, from 10.6 trillion dollars when President Obama 
took office to now over 19 trillion dollars.
    This accumulation of such staggering levels of debt is nothing 
short of reckless, and the situation will only get worse the longer we 
wait to address it. According to a recently released report by the non-
partisan Congressional Budget Office, in just 10 years, spending on 
mandatory spending programs and interest on the debt will consume 
nearly 99 percent of all federal revenues. Clearly this path is 
unsustainable.
    If we do not work to correct this disturbing trajectory, our 
ability to pay for essential government functions will be severely 
constrained, our economy will suffer, and our national security will be 
at risk.
    The CEA's Report we will discuss today devotes significant 
attention to inequality as a defining challenge of the 21st century. 
However, I think it's important to recognize that intergenerational 
theft is also a form of inequality--a particularly severe one that our 
kids and grandkids are poised to inherit.
    Their ability to succeed in our future economy will depend largely 
on the decisions we make today. For the American Dream to remain 
attainable for future generations, we must accept the reality of our 
fiscal situation and act responsibly by addressing it immediately.
    I look forward to discussing these issues in more depth with 
Chairman Furman.
                               __________
   Prepared Statement of Carolyn B. Maloney, Ranking Democrat, Joint 
                           Economic Committee
    Thank you, Mr. Chairman, for calling today's hearing.
    Dr. Furman, thank you for appearing before the Committee today to 
answer questions about the current state of the U.S. economy.
    I share the overall assessment of the Economic Report of the 
President, that under the leadership of President Obama the nation's 
economy is back on track after what was the worst recession in our 
history.
    We have just completed the best two years of private-sector job 
growth since the 1990s. We have recorded the fastest two-year drop in 
the annual average unemployment rate in 30 years.
    The unemployment rate has been cut in half. We're in the midst of 
the longest streak of private sector job creation in history, with a 
record 71 straight months of growth and the creation of 14 million 
jobs.
    There are some who disparage these achievements, claiming that the 
Obama recovery pales in comparison to ``average'' recoveries--as if the 
economic meltdown during the last years of the Bush Administration was 
an ``average'' recession.
    Is there anyone who is willing to say openly to the 8.7 million 
Americans who lost their jobs that the Great Recession was an 
``average'' event?
    Is there anyone willing to tell the 9 million Americans who lost 
their homes that this was a run-of-the-mill recession?
    Some prefer that we forget the past. I say we should learn from it.
    When George Bush left the oval office, the economy was in a death 
spiral.

    <bullet>  In the final quarter of 2008, GDP shrunk at a staggering 
8.2 percent annual rate, the worst quarterly economic performance in 
more than 50 years.
    <bullet>  Housing prices were collapsing. They fell by 20 percent 
nationally between 2007 and 2011. Some parts of the country saw 
declines twice that large.
    <bullet>  U.S households lost nearly $13 trillion during the last 
seven quarters of the Bush presidency.

    Dr. Furman, when I asked you last year at this time whether this 
recession was like a ``common cold.'' You said--rightly--that it was 
more like an economic heart attack. You said the loss in wealth as a 
share of the economy that precipitated the recent recession was about 
five times as large as the loss that triggered the Great Depression.
    Thanks to the bold action of President Obama, Democrats in Congress 
and the Federal Reserve, we have steadily climbed back from this 
recession.

    <bullet>  [As you can see in this chart,] U.S. GDP has grown in 24 
of the past 26 quarters. Real GDP has grown by 14.5 percent since the 
start of the Obama Administration.
    <bullet>  The auto industry--written off for dead by some--has 
added nearly 640,000 jobs since 2009. U.S. auto exports topped 2 
million units for the first time ever in 2014. Last year, they topped 2 
million again.
    <bullet>  Average housing prices have rebounded to around their 
2007 levels.
    <bullet>  And household wealth is more than $17 trillion higher 
than before the recession.

    This recovery has occurred despite efforts by many Republicans in 
Congress. First, they opposed stimulating the economy via the Recovery 
Act. They demanded budget cuts at exactly the time when economic theory 
says government should increase spending to boost demand.
    I hope that those who took action to slow the pace of the Obama 
recovery will stop complaining about it.
    The Report notes that the economy faces long-term structural 
challenges--first of all that the U.S. population is aging. That alone 
will decrease labor force participation and slow the growth of GDP. We 
also face the devastating effects of offshoring of American jobs and 
job losses due to automation and technological change.
    These challenges are not a surprise. They have been on economists' 
radar for years.
    So, what should we do? I agree with your assessment that we need to 
rebuild the nation's crumbling infrastructure, invest in early 
childhood education, implement paid leave, achieve equal pay for equal 
work and make college more affordable.
    I want to close by looking at economic inequality, one of the 
central issues of our time, and the focus of the first and fourth 
chapters of the Economic Report of the President.
    The U.S. experience has diverged from other advanced countries, as 
you note in your testimony, Dr. Furman. Since 1987, the share of income 
going to the top 1 percent in the United States has been greater than 
in every other G-7 country--every single year.
    We need to recommit ourselves to policies that expand opportunities 
and narrow inequality. These policies will pay dividends in the future 
and help us create an economy that is even more robust--an economy 
where the benefits of growth are shared across the income spectrum.
    As you note, giving all people a fair shot will strengthen our 
economy by boosting productivity and accelerating growth.
    Dr. Furman, thank you again for appearing before the Committee 
today. I am eager to hear your perspective on the economic challenges 
and opportunities ahead.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  

                                  [all]
                                  
                                  
                                  
                                  
</pre></body></html>
